     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601
                                        October 2, 2009

Report Number: A-05-09-00046

Mattie B. James
President and CEO
Child Development Council of Franklin County, Inc.
300 E. Spring Street
Columbus, Ohio 43215

Dear Ms. James:

Enclosed is the U.S. Department of Health and Human Services, Office of Inspector
General (OIG), final report entitled “Audit of Head Start Matching Costs for the Period
November 1, 2006, Through October 31, 2008.” We will forward a copy of this report to
the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-05-09-00046 in all correspondence.

                                             Sincerely,



                                             /Marc Gustafson/
                                             Regional Inspector General
                                               for Audit Services

Enclosure

HHS Action Official:

Kent Wilcox
Regional Administrator
Administration for Children and Families
U.S. Department of Health and Human Services
Region V
233 North Michigan Avenue, Suite 400
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL


      AUDIT OF HEAD START
     MATCHING COSTS FOR THE
    PERIOD NOVEMBER 1, 2006,
    THROUGH OCTOBER 31, 2008

   CHILD DEVELOPMENT COUNCIL
    OF FRANKLIN COUNTY INC.




                         Daniel R. Levinson
                          Inspector General

                           October 2009
                           A-05-09-00046
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL


      AUDIT OF HEAD START
     MATCHING COSTS FOR THE
    PERIOD NOVEMBER 1, 2006,
    THROUGH OCTOBER 31, 2008

   CHILD DEVELOPMENT COUNCIL
    OF FRANKLIN COUNTY INC.




                         Daniel R. Levinson
                          Inspector General

                           October 2009
                           A-05-09-00046
                            Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
program.
The Head Start program provides grants to local public and private non-profit and for-profit
agencies (local agencies) to provide comprehensive child development services to economically
disadvantaged children and families, with a special focus on helping preschoolers develop the
early reading and math skills needed to be successful in school. Head Start programs engage
parents in their children's learning and emphasize parental involvement in the administration of
local Head Start programs.
Federal regulations require local agencies to provide a 20-percent matching share of the total
costs of their program. The matching share is from non-Federal sources which may be in the
form of cash or in-kind contributions. A reduction in the matching share may be granted if the
ACF Regional Office approves a waiver. The Head Start Act defines a waiver as a reduction in
the required amount of grantee non-Federal share that is authorized by a Federal official in
writing. The Child Development Council of Franklin County, Inc. (grantee) meets three of the
required criteria defined in the Head Start Act, section 640(b)(1)-(5) for waiver of the non-
Federal share; specifically:

      the impact of the cost the Head Start agency may incur in the initial years of the program,

      the impact of an unanticipated increase in the cost the Head Start agency may incur to
       carry out such a program, and

      the impact on the community that would result if the Head Start agency ceased to carry
       out the program.

The grantee reported Head Start costs totaling $15,791,918 for its fiscal year (FY) 2007
(November 1, 2006, through October 31, 2007) and $23,022,971 for FY 2008 (November 1,
2007, through October 31, 2008). Of these costs, the grantee reported in-kind contributions
totaling $2,736,532 for FY 2007 and $5,018,541 for FY 2008 as part of its share of the required
20-percent match. The grantee requested and the ACF Region V office approved a partial
waiver of the 20-percent match for FY 2007 on September 17, 2007.

OBJECTIVE

Our objective was to determine whether the grantee reported costs that met the Federal program
requirements for the 20-percent matching share and allowable in-kind contributions reported for
both FYs 2007 and 2008.


                                                i
RESULTS OF AUDIT

The grantee reported costs that met Federal program requirements for the matching share and
allowable in-kind contributions reported for FYs 2007 and 2008. The grantee reported allowable
in-kind contributions for volunteer services, facility space, and other miscellaneous items that
met the matching share requirement for both FYs 2007 and 2008. For FY 2007 the matching
share requirement was met because the ACF Region V office approved a $1,248,083 waiver that
reduced the grantee’s required amount of the matching share.




                                               ii
                                                 TABLE OF CONTENTS
                                                                                                                       Page

INTRODUCTION...........................................................................................................1

          BACKGROUND ..................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ................................................2
               Objective ...................................................................................................2
               Scope.........................................................................................................2
               Methodology .............................................................................................2

RESULTS OF AUDIT....................................................................................................3

OTHER MATTERS .......................................................................................................3




                                                                   iii
                                      INTRODUCTION

BACKGROUND

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
program.
The Head Start program provides grants to local public and private non-profit and for-profit
agencies (local agencies) to provide comprehensive child development services to economically
disadvantaged children and families, with a special focus on helping preschoolers develop the
early reading and math skills needed to be successful in school. Head Start programs engage
parents in their children's learning and emphasize parental involvement in the administration of
local Head Start programs.
Federal regulations require local agencies to provide a 20-percent matching share of the total
costs of their program. The matching share is from non-Federal sources which may be in the
form of cash or in-kind contributions. A reduction in the matching share may be granted if the
ACF Regional Office approves a waiver. The Head Start Act defines a waiver as a reduction in
the required amount of grantee non-Federal share that is authorized by a Federal official in
writing. The Child Development Council of Franklin County, Inc. (grantee) meets three of the
required criteria defined in the Head Start Act, section 640(b)(1)-(5) for waiver of the non-
Federal share; specifically:

      the impact of the cost the Head Start agency may incur in the initial years of the program,

      the impact of an unanticipated increase in the cost the Head Start agency may incur to
       carry out such a program, and

      the impact on the community that would result if the Head Start agency ceased to carry
       out the program.

The grantee reported Head Start costs totaling $15,791,918 for its fiscal year (FY) 2007
(November 1, 2006, through October 31, 2007) and $23,022,971 for FY 2008
(November 1, 2007, through October 31, 2008). Of these costs, the grantee reported in-kind
contributions totaling $2,736,532 for FY 2007 and $5,018,541 for FY 2008 as part of its share
of the required 20-percent match. The grantee requested and the ACF Region V office approved
a partial waiver of the 20-percent match for FY 2007 on September 17, 2007.




                                                1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the grantee reported costs that met Federal program
requirements for the 20-percent matching share and allowable in-kind contributions reported for
both FYs 2007 and 2008.

Scope

Our review included costs reported for the period November 1, 2006, through October 31, 2008.
We did not review the overall internal control structure of the grantee. We limited our internal
control review to obtaining an understanding of the procedures used by the grantee to document
compliance with Federal requirements for the 20-percent matching share and allowable in-kind
contributions.

We reviewed a sample of in-kind contributions totaling $61,185 from FY 2007 and $46,438 from
FY 2008. 1 We reviewed volunteer services, facility space, and other miscellaneous items
reported as in-kind contributions.

We conducted fieldwork at the grantee’s office in Columbus, Ohio in January 2009.

Methodology

To accomplish the objective, we:

       reviewed applicable laws, regulations, and guidelines;

       reviewed the August 2007ACF triennial review of the grantee;

       reviewed correspondence with the ACF Region V Office related to non-Federal matching
        costs;

       gained an understanding of the grantee’s accounting system;

       reviewed sampled invoices, journal entries, and trial balances;

       reviewed costs reported and supporting documentation for sampled cost categories;

       reconciled the final financial status report to the grantee’s accounting records; and

       reviewed sampled costs for allocability, reasonableness, and allowability.


1
 The sample was selected from in-kind contributions claimed in November 2006; February and September 2007;
and January, March and October 2008.


                                                      2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                    RESULTS OF AUDIT

The grantee reported costs that met Federal program requirements for the matching share and
allowable in-kind contributions for both FYs 2007 and 2008. The grantee reported allowable in-
kind contributions for volunteer services, facility space, and other miscellaneous items that met
the matching share requirement for both FYs 2007 and 2008. For FY 2007 the matching share
requirement was met because the ACF Region V office approved a $1,248,083 waiver that
reduced the grantee’s required amount of matching share.

                                     OTHER MATTERS

The grantee overstated in-kind space contributions by $22,998 in both FYs 2007 and 2008, and
was missing supervisor signatures for in-kind volunteer contributions valued at $4,870 in FY
2007 and $4,352 in FY 2008. We are not making a financial recommendation because the
grantee provided in-kind matching contributions in excess of that required, which more than
covered the amount of the overstatements and volunteer contributions.




                                                3
